                                                                            CliftonLarsonAllen LLP
                                                                            www.cliftonlarsonallen.com




        INDEPENDENT AUDITORS’ REPORT ON THE CONDENSED
                    FINANCIAL STATEMENTS




Inspector General
United States Nuclear Regulatory Commission

Chairman
United States Nuclear Regulatory Commission

We have audited the balance sheets of the United States Nuclear Regulatory Commission (NRC)
as of September 30, 2012 and 2011, and the related statements of net cost, changes in net
position, and budgetary resources (“financial statements”) for the fiscal years then ended. Our
audit was performed in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and OMB Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements, as amended. In our report dated
November 8, 2012, we expressed an unqualified opinion on those financial statements.

In our opinion, the information set forth in the accompanying condensed financial statements is
fairly stated in all material respects in relation to the financial statements referred to above from
which it has been derived.

In accordance with Government Auditing Standards, our report on the financial statements
referred to above includes an opinion on the effectiveness of internal control over financial
reporting and a report on compliance with laws and regulations for the fiscal years ended
September 30, 2012 and 2011. Those reports are integral parts of a financial statement audit
performed in accordance with Government Auditing Standards and should be considered in
assessing the results of our audit.




Arlington, Virginia
November 8, 2012
